National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                   March 2, 2011


TO:              Woodrow Whitlow
                 Associate Administrator for Mission Support

FROM:            Jim Morrison
                 Assistant Inspector General for Audits

SUBJECT: Audit of NASA’s Facilities Maintenance (Report No. IG-11-015; Assignment
         No. A-09-002-00)


The Office of Inspector General (OIG) examined NASA’s facilities maintenance program to
evaluate the Agency’s efforts to prioritize and fund maintenance activities, including whether
NASA accurately captured costs associated with its maintenance and repair activities in a
consistent manner and reported such costs to NASA management and relevant Federal agencies.
We also reviewed internal controls as they related to the overall objective. The details of our
scope and methodology are set forth in the enclosure.

Many of NASA’s facilities are in degraded condition and its maintenance backlog continues to
grow each year. 1 NASA’s deferred maintenance estimate for all its facilities increased from
$1.90 billion in fiscal year (FY) 2005 to $2.55 billion in FY 2010. Continued deferral of facility
maintenance could result in unsafe working conditions and higher annual maintenance costs.
From FY 2005 through FY 2009, deferred maintenance as a percentage of current replacement
value increased, indicating that NASA’s facilities were deteriorating. Although the overall
deferred maintenance estimate in FY 2010 increased by approximately $6 million, deferred
maintenance as a percentage of current replacement value decreased, indicating a slight
improvement in the condition of NASA’s facilities. 2 This occurred due to NASA’s efforts to
replace or refurbish aged facilities.

Problems associated with NASA’s ability to maintain its facilities and associated infrastructure
have been widely reported for more than 2 decades. In 1990, the Government Accountability
Office (GAO) reported that many of NASA’s facilities were in degraded condition and had not

1
    NASA defines maintenance backlog or deferred maintenance as the essential but unfunded work necessary to bring
    its Centers up to required facilities maintenance standards.
2
    The NASA-wide Facility Condition Index (FCI) is rated on a scale from 5 (excellent) to 1 (non-functional).
    According to this tool, NASA’s facilities have generally remained stable at 3.6 from FY 2006 to FY 2010.
    However, deferred maintenance as a percentage of current replacement value is a more precise indicator of whether
    the condition of NASA’s facilities are improving or deteriorating.
                                                                                                                     2


been adequately maintained. 3 GAO found that Centers had not based their maintenance budgets
on actual needs or accurately accounted for all maintenance expenditures because NASA had not
previously required Centers to report all maintenance costs or conduct regular assessments of the
condition of its facilities to develop their total maintenance needs. In 2008, GAO issued a report
on deferred maintenance at six Federal Agencies, including NASA, and found that all six
agencies periodically assess the condition of their assets to identify needed repairs. However, the
agencies use different methods to define and estimate their repairs and maintenance backlogs. 4
Further, the 2008 report noted that information provided by NASA Centers identified a deferred
maintenance estimate of about $1 billion, which is far lower than the $2.3 billion in deferred
repair and maintenance backlog NASA reported for FY 2007. The GAO report stated that
NASA officials’ reason for the difference was that “the centers include only the most important
projects that they believe should receive funding, instead of all projects to address their backlog
as estimated in NASA's annual deferred maintenance assessment report.” According to NASA
facilities officials, Center facilities resources are reviewed by Headquarters as part of the annual
budget development. NASA Centers assign priorities to maintenance and repair activities using
Center prioritizing systems.

More recently, the Aerospace Safety Advisory Panel (ASAP) expressed concern about the safety
of NASA’s infrastructure. ASAP’s Annual Report for 2010 stated that “(a)lthough the Field
Centers appear to be doing a good job in identifying facilities that have deficiencies that could
pose a safety risk to employees or missions, the Agency still has not presented a systematic
approach to prioritizing facilities and laboratories requiring safety-related repairs and
harmonizing funding across the Agency to facilitate those repairs in the most effective manner.”
In addition, a 2010 National Research Council assessment reported that NASA must invest more
in maintaining and upgrading its basic research laboratories if it wants to meet major mission
goals. 5

Based on our work for this audit, we believe that the OIG needs to review additional aspects of
NASA’s efforts to reduce deferred maintenance and manage its real property. For example,
during the course of our audit, we found that much of NASA’s construction of facilities (CoF)
funding is for major repair work. This could indicate that maintenance and repair funding is
insufficient at the Centers. However, we did not assess CoF funding as a part of this review. 6
Further, the 2008 NASA Authorization Act included a directive requiring the Agency to develop
a plan that would reduce its deferred maintenance by 50 percent over the next 5 years. Following
the completion of our fieldwork, NASA submitted its plan to reduce deferred maintenance to
Congress. Congress subsequently passed the FY 2010 Authorization Act that called for NASA
to rescope its facilities and, as appropriate, downsize to fit current and future missions and

3
    GAO, “NASA Maintenance: Stronger Commitment Needed to Curb Facility Deterioration (GAO/NSIAD-91-34),”
    December 1990. [Note: Prior to July 7, 2004, the GAO was known as the General Accounting Office.]
4
    GAO, “Federal Real Property - Government's Fiscal Exposure from Repair and Maintenance Backlogs is Unclear
    (GAO-09-10),” October 2008.
5
    National Research Council, “Capabilities for the Future: An Assessment of NASA Laboratories for Basic
    Research” (Washington, DC: National Research Council, 2010).
6
    CoF includes funds for construction of new facilities as well as refurbishment, and major repair projects. Between
    2006 and 2010, NASA spent approximately $1.90 billion on CoF projects.
                                                                                                  3


expected funding levels. Specifically, the Act directs the Administrator to undertake a
comprehensive study that carefully examines NASA’s institutional assets and pays particular
attention to identifying and removing unneeded or duplicative infrastructure. Given these factors
and in lieu of issuing a report detailing the full extent of our work to date, we are expanding our
efforts in the area of NASA’s facilities and infrastructure management and plan to conduct a
series of in-depth reviews, including reviews of facility utilization and the management of CoF
funding.

In light of our planned work and the requirement that NASA report to Congress regarding its
facilities utilization, we are issuing this memorandum to summarize our concerns regarding
NASA’s ability to plan and budget for maintenance and repair needs. In short, we found that
because maintenance requirements were not fully communicated to Headquarters during the
budgeting process, it has been difficult for NASA to make informed budgeting decisions
regarding Agency-wide facility maintenance needs.

Determining NASA’s Annual Funding Dedicated to Maintenance and Repair Is
 Challenging

NASA’s ability to plan for and achieve a reduction in its maintenance backlog depends on having
reliable facilities maintenance cost data. However, at the time of our fieldwork, NASA used
multiple and inconsistent mechanisms for capturing costs associated with facilities maintenance
work. Without accurate, complete, and consistent maintenance cost data, NASA is unable to
evaluate the maintenance and operation cost of its facilities and make informed
sustainment/repair/replacement decisions.

NASA collected information from the Centers on annual maintenance and repair costs through
three different mechanisms: (1) NASA’s accounting system; (2) the facilities maintenance
metrics reports; and (3) the Real Property Inventory database. In addition, each of the Centers we
visited used varying reporting methodologies for each of these reporting mechanisms. Further,
four Centers reported using funds from non-maintenance and repair accounts, including
programmatic funds, on maintenance activities in their metrics reporting (see Table 1). These
inconsistencies make it difficult to identify all maintenance costs across the Agency. We
examine each of these mechanisms below.

       1. NASA’s Accounting System. Individual Centers did not consistently align cost
          reporting with work breakdown structures in NASA’s accounting system as required by
          NASA guidance. 7 A work breakdown structure uses numerical codes to divide the
          program/project into manageable pieces of work, with increasing levels of detail, to
          facilitate planning and control costs and schedule. While Headquarters officials issued
          guidance to the Centers in March 2007 to better align contractor cost reporting with the
          work breakdown structure, 5 Centers (Ames, Goddard, Kennedy, Langley, and Marshall)
          did not develop adequate plans to do so. According to the former Deputy Director of the
          Office of Program and Institutional Integration (OPII), OPII did not mandate the use of

7
    NPR 9501.2D, “NASA Contractor Financial Management Reporting,” effective May 23, 2001.
                                                                                                                        4


            the specific work breakdown structure codes because doing so might have required
            contract modifications and resulted in additional costs. 8 In addition, the Centers’ Offices
            of the Chief Financial Officer did not adequately communicate to the Centers’ facility
            management offices the requirement to align costs with the work breakdown structure.
            As a result, 2 (Kennedy and Marshall) of the 5 Centers entered into new multi-year
            contracts for maintenance and repair services in 2008 without aligning contractor
            reported costs with the work breakdown structure. Because the maintenance costs
            recorded in the accounting system at these Centers did not accurately reflect the types of
            work that had been performed, decision makers could not rely on the data. Without
            reliable cost data, it is difficult for NASA Headquarters to facilitate accurate,
            requirements-based planning Agency-wide. Subsequent to our fieldwork, NASA
            conducted a study (The Baseline Services Study) in FY 2010 that confirmed a common
            work breakdown structure for budgeting starting in FY2011.

      2. Facilities Maintenance Metrics Reports. The Facilities Engineering and Real Property
         Division (FERP) at NASA Headquarters did not issue adequate reporting guidance to the
         Centers to ensure consistency among the methodologies the Centers used to report
         maintenance and repair costs. NASA Centers are required to compile data about Center-
         specific facilities maintenance performance metrics and submit the data to FERP
         annually. 9 This data is compiled into a report that encompasses metrics such as actual
         annual maintenance and repair funding, cost of scheduled work, and the cost of
         unscheduled work and breakdown repair. We found that the data sources used by the
         Centers differed, as did whether they included service requests, grounds care, custodial
         services, user funds, and mission directorate funds in their maintenance cost data (see
         Table 1).

           According to FERP personnel, this report is used to identify trends within the individual
           Centers – e.g., trends in the cost of maintenance and repair activities and comparing the
           amount of scheduled work to the amount of unscheduled work performed annually.
           Further, this metrics report is used to ensure that the individual Centers were being
           consistent in the manner in which they developed and presented their data. FERP
           personnel did not consider consistency among the various Centers to be an issue.
           However, our review of these reports found that FERP rolled up the metrics data from the
           Centers and used the combined number internally to track trends from year to year.
           Unfortunately, without consistent data across the Centers, FERP officials cannot obtain
           an accurate NASA-wide view of facility maintenance and repair trends, which hampers
           the Agency’s ability to evaluate and plan for its facility maintenance needs.




8
    At the time of our review, the officials we spoke to were part of the Office of Program and Institutional Integration
    (OPII). As of February 23, 2010, OPII became part of the Mission Support Directorate.
9
    NPR 8831.2E, paragraph 3.11.5.10.
                                                                                                                5


                       Table 1. Differences in Sources and Inclusions in
                      Maintenance Cost Data from Eight Centers, by Center
                                                          Included in the Cost Data
                                                                                                  Mission
  NASA            Source of Cost         Service      Grounds      Custodial        User         Directorate
  Center                Data            Requests       Care        Services        Fundeda        Fundedb
Ames             CMMSc                  Yes            Yes          No             Yes             No
Glenn            CMMSc                  Yes            Yes          No             Yes             Yes
Goddard          Accounting
                                         Yes            No           No            Yes             No
                 system
Johnson          Separate work
                 order tracking          No             No           No            No              No
                 system
Kennedy          Unknownd                Unknown        No           No            Unknown         Yes
Langley          Accounting
                                         No             Yes          No            No              No
                 system
Marshall         CMMSc                   No             No           No            No              No
Stennis          Accounting
                                         No             No           Yes           No              Yes
                 system
a
  Maintenance and repair work performed by the Facilities Maintenance Management office but paid for
  through the NASA user’s budget.
b
   Program contracts separate from the Centers’ institutional contracts.
c
  Computerized Maintenance Management System (CMMS) used to track status and cost of maintenance
  activities.
d
   The person who compiled the metrics for Kennedy retired and, at the time of our review, no one was able to
  identify where the data came from.



       3. Real Property Inventory Database. FERP officials did not provide the Centers with
          guidance on the methodology to use to calculate the maintenance costs in NASA’s Real
          Property Inventory database. According to a February 2004 Executive Order, each
          Executive Branch agency is required to provide the General Services Administration with
          descriptive information about its real property holdings. In response, NASA directed the
          Centers to manage their real property (land and facilities) to ensure that it is available for
          NASA to use in support of accomplishing its mission. 10 To help Centers meet this
          requirement, NASA maintains the Real Property Inventory database, which provides an
          Agency-wide data system for tracking real property and serves as an automated method
          for maintaining and reporting real property data. NASA uses the Real Property Inventory
          data to compile, analyze, and report on real property to NASA Headquarters, FERP, and
          the General Services Administration and to support NASA management on budgeting
          and analysis of deferred maintenance. Because FERP did not provide the Centers
          guidance on the methodology to use to calculate the maintenance costs in the Real
          Property Inventory database, the Centers used variations of direct costs and allocations to

10
     NASA Policy Directive 8800.14D, “Policy for Real Estate Management,” effective July 15, 2004.
                                                                                                      6


           determine their maintenance data. Because the source data were inconsistent, NASA
           management and the General Services Administration did not receive reliable and valid
           maintenance cost data in the Real Property Inventory database. In October 2010, NASA
           converted to a new database, the Real Property Module, which is part of NASA’s
           accounting system. However, the Real Property Inventory data was migrated into the new
           database, and cost data was still being entered at the Centers.

Having multiple and inconsistent mechanisms for reporting the cost of maintenance activities
limits the usefulness of the data because the amounts contained in the different systems are not
comparable. Specifically, the inconsistencies in reporting limits the usefulness of the data for
Headquarters budgeting decision makers, and prevents NASA from determining the total amount
of funds used annually for maintenance and repair activities. In FY 2010, NASA conducted a
comprehensive review of all center maintenance and operations costs, including facilities
maintenance and operations. Common definitions and accounting codes were issued to the
Centers for use in FY 2011. The OIG did not review that study as a part of this audit.

Facilities Maintenance Planning Documents Are Underutilized

NASA requires Centers to develop both an annual work plan and a 5-year plan to articulate their
maintenance needs. However, we found that none of the Centers we visited had annual work
plans that fully justified their budget requests or 5-year maintenance plans that provided data for
budget forecasting. Without proper preparation and use of planning documents, NASA
maintenance managers could not effectively assess anticipated maintenance needs across the
Agency or effectively compete for funding of facilities maintenance activities with other Center
support services.

NASA procedural guidance requires facilities maintenance managers to develop both an annual
work plan and a 5-year maintenance plan to identify all maintenance needs and ensure that the
highest priority work is scheduled and not overlooked in the budgeting process. 11 We describe
each of these plans below.

           Annual Work Plan. The annual work plan is used to justify funding for the maintenance
           and repair of facilities and to ensure that the Centers use resources effectively. According
           to NASA policy, the annual work plan provides Centers with a vehicle to display long-
           and short-range facility requirements by articulating their needs based on mission impact
           and the most probable facility availability outcomes under varying budget scenarios. The
           policy further states that the annual work plan should be prepared at the start of the fiscal
           year, incorporate work that is necessary but unfunded, and remain flexible to incorporate
           changes throughout the year to accommodate changes to requirements that cannot wait
           for the next budget cycle.

           Five-Year Plan. The 5-year maintenance plan provides information for budget
           forecasting and initial planning and preparation of the annual work plan. NASA policy

11
     NPR 8831.2E, “Facilities Maintenance and Operations Management,” effective November 18, 2008.
                                                                                                                        7


           requires that the annual work plan evolve from a multi-year plan derived from a complete
           and continuously updated list of facilities requirements. The 5-year maintenance plan is
           based on the total maintenance requirements, which in turn are based on mission,
           criticalities, and established standards. Developing a 5-year maintenance plan that
           provides a complete and continuously updated list of facilities requirements ensures that
           the highest priority of maintenance work is scheduled and not lost in the budgeting
           process. The plan should also provide for management of deferred maintenance.

Because Center budget offices did not require facility managers to submit these planning
documents to justify their maintenance and repair budget requests, Center facilities management
personnel did not develop adequate annual work plans and 5-year maintenance plans. As shown
in Table 2, three Centers (Goddard, Langley, and Marshall) developed annual work plans, but
these plans did not meet all NASA policy requirements. Specifically, the annual work plans did
not include a risk assessment, routine maintenance costs, and budget justification information as
required. 12 In addition, two of the Centers’ (Langley and Marshall) annual work plans focused
primarily on how the contractor was to perform its requirements under the maintenance contract
and not on Center priorities.

Although not all of the Centers fully developed these formal planning documents, all of the
Centers did develop lists of projects they planned to complete. However, similar to the annual
work plans developed, the lists did not include routine maintenance costs or budget justification
information and generally did not include adequate risk assessments. Five Centers (Glenn,
Goddard, Johnson, Kennedy, and Stennis) had a formal process to document those risk
assessments. However, only two of the five Centers (Goddard and Kennedy) maintained project
lists that identified the risk of not completing the projects. 13




12
     Goddard’s annual work plan did include a risk assessment, but did not include routine maintenance costs or other
     budget justification information.
13
     Officials at Glenn maintained a list of projects that included a risk assessment they anticipated being funded;
     however, they did not include other vital projects for which they did not anticipate receiving funding.
                                                                                                          8


     Table 2. Differences in Center-Developed Maintenance Planning Documents
                                                                             Formal Risk
     Center       Annual Work Plan        5-Year Maintenance Plan        Assessment Process
  Ames           No                      No                             No
  Glenn          No                      No                             Yes, but not complete
  Goddard        Yes, but did not meet   Yes, but did not address       Yes
                 requirements            routine maintenance
  Johnson        No                      No                             Yes, but not complete
  Kennedy        No                      No                             Yes
  Langley        Yes, but did not meet   Yes, but did not address       No
                 requirements            routine maintenance and had
                                         not been updated since 2004
  Marshall       Yes, but did not meet   Yes, but developed by          No
                 requirements            contractor and not used by
                                         Center facilities officials
  Stennis        No                      No                             Yes, but not complete


  In addition, according to facility maintenance personnel at each of the Centers we visited, the
  annual work plan is not particularly helpful because even if projects are planned for completion
  during the year, many do not end up being funded because the Centers use available funding to
  cover unplanned repairs. Facility management personnel at some Centers noted that they often
  struggled to find funding for critical safety-related work and therefore could not often accomplish
  work that would result in future cost savings or early detection of failing systems.

  Nevertheless, without proper planning, NASA maintenance managers could not effectively
  compete with other support services at their Centers for funding of facilities maintenance. The
  Centers’ annual work plans and 5-year maintenance plans should support the development of
  their respective Program Analysis and Alignment Reports, which are used to develop the Center
  Management and Operations budget request and describes some specific, mission-critical
  projects that the Center facilities offices reported as the highest priority. However, Headquarters
  officials did not require the Centers to fully justify their budget requests in the Center Program
  Analysis and Alignment reports and left it to the Centers to determine what information they
  wanted to convey. As a result, Centers varied in the amount of detail included in the reports,
  making it difficult to analyze needs across the Agency.


Conclusion

  Without better planning and budgeting information, it will be difficult for NASA to evaluate the
  maintenance and operation cost of its facilities, make informed sustainment/repair/replacement
  decisions across all NASA Centers, and accurately report progress toward reducing its deferred
  maintenance. Therefore, NASA’s efforts to reduce its deferred maintenance projects may be
  hindered, thereby increasing the risk that facilities will not be available for future use to support
  the Agency’s missions.
                                                                                            9


Although comments were not required, NASA management provided technical comments during
our exit conference, which have been incorporated into this memorandum, as appropriate. We
appreciate the courtesies extended during this review. If you have any questions or need
additional information, please contact Laura B. Nicolosi, Mission Support Director, Office of
Audits, at 202-358-2562.


Enclosure

cc:    Olga M. Dominguez
       Assistant Administrator, Strategic Infrastructure

       Frank T. Bellinger
       Director, Facilities Engineering and Real Property Division

       Simon P. Worden
       Director, Ames Research Center

       Ramon Lugo
       Director, Glenn Research Center

       Robert D. Strain
       Director, Goddard Space Flight Center

       Michael L. Coats
       Director, Johnson Space Center

       Robert D. Cabana
       Director, Kennedy Space Center

       Lesa B. Roe
       Director, Langley Research Center

       Robert M. Lightfoot
       Director, Marshall Space Flight Center

       Patrick E. Scheuermann
       Director, Marshall Space Flight Center
                              Scope and Methodology
We performed our audit from December 2008 through February 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We concentrated our review on FY 2008 because, at the start of our audit, it was the most
current complete reporting period available. We performed work at NASA Headquarters,
including the FERP Division and the former OPII, as well as the following eight NASA
Centers:

   •   Ames Research Center
   •   Glenn Research Center
   •   Goddard Space Flight Center
   •   Johnson Space Center
   •   Kennedy Space Center
   •   Langley Research Center
   •   Marshall Space Flight Center
   •   Stennis Space Center

We selected a statistical sample of 40 facilities and reviewed the maintenance projects for
those facilities completed in FY 2008 for compliance with applicable laws, regulations,
and policy. We reviewed each Center’s FY 2008 annual work plan, five-year
maintenance plan, and performance indicators such as deferred maintenance to evaluate
the effectiveness of the maintenance activities. In addition, we reviewed NASA's
Deferred Maintenance Reduction Plan, June 2010, to determine whether the plan met the
requirements of the NASA Authorization Act of 2008. We interviewed representatives
from the FERP Division to identify and discuss implementation of NASA’s primary
maintenance management guidance, NPR 8831.2E. We also interviewed representatives
from each Center’s facility management office, contract representatives, and budgeting
officials to gain an understanding of each Center’s process for selecting and funding
maintenance activities.

Use of Computer-Processed Data. We used computer-processed data to perform this
audit. Each Center records their maintenance cost data in NASA’s accounting system and
the Real Property Inventory database at the end of the fiscal year. However, NASA
Headquarters did not provide adequate guidance as to what maintenance costs should be
included, which resulted in inconsistent and incomplete cost data. Therefore, we do not
have reasonable assurance that the maintenance cost data reported through NASA’s
accounting system or the Real Property Inventory database were reliable as we discussed
in this report.


                                                                                      Enclosure
                                                                                     Page 1 of 2
  In addition, each Center uses a computerized maintenance management system to
  maintain their individual maintenance projects conducted on each facility. However, the
  Centers did not all use the same software or versions of the software. To review the
  maintenance projects completed in FY 2008 on the 40 sampled facilities, we discussed
  the maintenance projects with each Centers’ facility management office and project
  managers. We believe that we received complete and accurate project information, and,
  therefore, our audit work, findings, and conclusions were not affected.


Review of Internal Controls

  We reviewed and evaluated the internal controls associated with developing the required
  maintenance planning documents, selecting and funding maintenance projects, and
  determining the maintenance costs reported in NASA’s accounting system, the annual
  facilities maintenance metrics, and the Real Property Inventory database. Our review
  included a review and evaluation of the oversight and guidance provided by the FERP
  Division, to the Centers for these areas. We also reviewed the internal controls associated
  with selecting a contract type for maintenance activities. We found deficiencies in these
  areas, as discussed in this report.


Prior Coverage

  The Government Accountability Office (GAO) and NASA have issued three reports of
  particular relevance to the subject of this report. Unrestricted reports can be accessed
  over the internet at http://www.gao.gov (GAO) and
  http://oig.nasa.gov/audits/reports/FY09 (NASA).

  Government Accountability Office

  “Federal Real Property - Government’s Fiscal Exposure from Repair and Maintenance
  Backlogs is Unclear” (GAO-09-10, October 2008)

  “NASA Maintenance: Stronger Commitment Needed to Curb Facility Deterioration”
  (GAO/NSIAD-91-34, December 1990)

  National Aeronautics and Space Administration

  “NASA Should Reconsider the Award Evaluation Process and Contract Type for the
  Operation of the Jet Propulsion Laboratory” (IG-09-022, September 25, 2009)




                                                                                        Enclosure
                                                                                       Page 2 of 2
